IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10284-C

IN RE: VAN LAWSON WILLIAMS,
Petitioner.

Application for Leave to File a Second or Successive
Motion to Vacate, Set Aside,
or Correct Sentence, 28 U.S.C. § 2255(h)

Before: MARTIN, GRANT, and LAGOA, Circuit Judges
BY THE PANEL:
Pursuant to 28 U.S.C. §§ 2255(h) and 2244(b)(3)(A), Van Lawson Williams has filed an
application that seeks an order authorizing the district court to consider a second or successive
motion to vacate, set aside, or correct his federal sentence. Id. § 2255. Such authorization may
be granted only if this Court certifies that the second or successive motion contains a claim
involving:
(1) newly discovered evidence that, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have found the movant guilty of the
offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable.
Id. § 2255(h). “The court of appeals may authorize the filing of a second or successive application
only if it determines that the application makes a prima facie showing that the application satisfies

I 0?^

the requirements of this subsection.” Id. § 2244(b)(3)(C); see also Jordan v. Sec ’y, Dep t of
Corrs., 485 F.3d 1351, 1357-58 (11th Cir. 2007) (explaining that this Court’s determination that
an applicant has made a prima facie showing that the statutory criteria have been met is simply a
threshold determination).
Williams is a federal prisoner serving a life sentence for sex trafficking of children, sex
trafficking of minors under the age of fourteen, and attempted sex trafficking.
- In his application, Williams asserts four claims he seeks to bring in a successive § 2255
petition. First, Williams argues that his attorney, Howard Greitzer, acted in bad faith, committed
fraud, and deceived him and the district court because at the time Greitzer represented Williams,
he also represented multiple Fort Lauderdale police officers in a separate criminal action.
Williams contends that his new evidence is newspaper articles regarding the police officers’ trial
that demonstrate his attorney also represented the police officers.
Second, Williams argues that a different attorney, Chantel Doakes, committed fraud on the
court and acted in bad faith with the intent to violate his constitutional rights when she filed an
invocation of his right to silence and counsel,

Williams argues that his attorney filed the

invocation without his knowledge and that his attorney illegally signed the district court judge s
name on the invocation of his rights. Williams argues that the invocation was “catastrophic to
his defense because it stopped “his voice from being heard” throughout the proceedings.
Williams asserts that this is new evidence because he was unaware the invocation occurred until
after he filed a bar complaint against his attorney for not giving him any of the documents from
his case.

2 Bfl|

Third, Williams argues that Doakes committed fraud on the court when she indicated that
he refused to attend a scheduled detention hearing.

Williams argues that Doakes and the

government conspired to have him “transferred to state court for a misdemeanor” so that he would
miss his appearance in federal court where the court ordered a $250,000 bond and that Doakes and
\ thg government conspired to do this because the Florida State Attorney s Office had found some
Fort Lauderdale police reports to be false. Williams contends that he did not learn he could post
bond until after trial, which deprived him of additional “access” outside of prison for his defense.
In support, Williams attached newspaper articles to his petition regarding police officers being
fired from the Fort Lauderdale Police Department for scheming to shake down drug addicts and
dealers for their money.

•

Finally, Williams argues that Raven Thurston, a witness that testified against him at trial,
was coerced to lie by the government.

As new evidence, Williams attached an affidavit

completed by Thurston. In her affidavit, Thurston explains that she originally met Williams when
he broke up a fight between her and other individuals in his front yard and that Williams eventually
became her foster parent. Thurston also alleges that she stole Williams’s credit card and gave it
to her biological mother to use, which resulted in Williams sending her to live with her mother.
Thurston explains that she convinced her mother to make false charges against Williams because
she was angry at him for sending her back to live with her mother, Thurston claims that state and
federal authorities coerced her and others to testify against Williams and that she lied when she
testified that she worked as a prostitute for Williams and had sex with him.
We find that Williams’ s application does not present newly discovered evidence that would
be sufficient to establish, by clear and convincing evidence, that no reasonable factfinder would

3 Of

have found him guilty. See 28 U.S.C. § 2255(h)(1). Williams’s evidence regarding his attorney
also representing Fort Lauderdale police officers in a separate criminal case does not meet the
above standard, as it has no relation to the facts of his case. In addition, Williams’s claims
regarding his attorney invoking his right to silence and counsel and stating that he refused to appear
for his detention hearing also fail because neither argument addresses his guilt or innocence.
Finally, while Williams presents Thurston’s affidavit claiming that she falsely testified at
- Williams’s trial as “new evidence,” this evidence would not prevent a reasonable juror from
determining that Thurston’s current version of events is false, believing her prior testimony under
I

oath, and finding Williams guilty. See Schlup v. Delo, 513 U.S. 298, 329 (1995) (“Thus, a
petitioner does not meet the threshold requirement unless he persuades the district court that, in
light of the new evidence, no juror, acting reasonably, would have voted to find him guilty beyond
a reasonable doubt.”). Therefore, Williams’s arguments fail because none of them establish, by
clear and convincing evidence, that no reasonable factfinder would have found him guilty.
Accordingly, because Williams has failed to make a prima facie showing of the existence
of either of the grounds set forth in 28 U.S.C. § 2255, his application for leave to file a second or
successive motion is hereby DENIED.

4

Additional material
from this filing is
available in the
Clerk's Office.

